The Centers for Medicare & Medicaid Services (CMS) Web site address referenced on
page 1 and page 4 of the following report has changed. The new address is:

http://www.cms.hhs.gov/TherapyServices/
 ""'ClS
                         ~~~~
               DEPARTMENT OF HEALTH &. HUMAN SERVICES	                                       Office of Inspector General

":."410                                                                                      Washington , D. C.   20201
                                                        MAY, i 1   2006



          TO:	            Leslie V. Norwalk

                          Deputy Administrator

                          Centers for Medicare & Medicaid Services


          FROM:           Stuart Wright 


                          Deputy Inspector General

                            for Evaluation and Inspections


          SUBJECT:	 Physical Therapy Biled by Physicians


          In 2002 , the Office of Inspector General (OIG) initiated work associated with Medicare
          payments for physical therapy. In October 2003 , we reported interim results to your office
          detailing aberrant biling patterns by certain physicians and carrier efforts to target physicians
          physical therapy claims. Since the issuance of our 2003 memorandum , we have completed the
          results of our medical review of claims paid by Medicare in the first 6 months of 2002 and we
          have updated our claims data analysis of physicians who show aberrant biling patterns for
          physical therapy claims.


          Based on a simple random sample of 70 physical therapy line items biled by physicians and
          rendered in the first 6 months of2002 , we found that 91 percent of physical therapy biled by
          physicians and allowed by Medicare during the first 6 months of 2002 did not meet program
          requirements , resulting in $136 milion in improper payments. In addition , we analyzed
          Medicare claims data from 2002 to 2004 and identified aberrances in physicians biling patterns
          and unusually high volumes of claims. Finally, based on our review, we identified a number of
          issues associated with physical therapy biled by physicians under the " incident to " rule.

          During the course of our review, the Centers for Medicare & Medicaid Services (CMS) took
          actions that addressed many of our findings. First, in November 2004 , CMS issued a final rule to
          address the skil level of staff that provides physical therapy " incident to " physician services.
          Additionally, in May 2005 , CMS issued a change request that clarifies CMS policy with respect
          to physical therapy services (Publication 100- , Transmittal 36 , Change Request 3648).
          Finally, CMS recently posted provider education materials regarding physical therapy services
          on its Web site (ww. cms. hhs. gov/providers/therapyO. In light of these changes , we have
          decided not to issue a report that would include formal recommendations to CMS. Instead , we
          are transmitting this summary of our review in the event that the information wil be useful
          CMS' s review of the physical therapy benefit and future considerations of the " incident to " rule.

          BACKGROUND

          Physical therapy is the treatment of functional limitations to prevent the onset and/or slow the
          progression of physical impairments after an ilness or injury. Physical therapy includes:
          (1) examining patients with impairments , functional limitations , disabilities , or other health-
          related conditions to determine a diagnosis , prognosis , and intervention; (2) alleviating
Page 2 – Leslie V. Norwalk


impairments and functional limitations by designing, implementing, and modifying therapeutic
interventions; and (3) preventing injury, impairment, functional limitation, and disability,
including the promotion and maintenance of fitness, health, and quality of life.1 Common
treatments performed in physicians’ offices include therapeutic procedures, manual therapy,
electrical stimulation, and ultrasound therapy.

Physical therapy billed directly by physicians represented approximately $158 million out of a
total of approximately $528 million for physical therapy claims billed to the Part B carriers and
allowed by Medicare in the first 6 months of 2002. Medicare allows physicians to submit claims
for physical therapy that they do not perform personally, as long as the services are an “integral,
although incidental, part of the physicians’ personal professional services in the course of
diagnosis or treatment of an injury or illness.”2 The total allowed for physicians’ physical
therapy claims has increased from $353 million in 2002 to $509 million in 2004, and the number
of physicians who billed for more than $1 million in physical therapy has more than doubled,
from 15 to 38 in the same 2-year period.

General provisions of the Social Security Act (the Act) govern Medicare reimbursement of all
services, including physical therapy. Section 1862(a)(1)(A) of the Act states that
“. . . no payment may be made [under the Medicare title for services that] are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member.”

Specific coverage requirements for physical therapy are in section 1861(p) of the Act, which
requires that:

    • 	 The patient must be under the care of a physician (a doctor of medicine, osteopathy,
        optometry, or podiatric medicine).

    • 	 The services must be furnished under a plan of care. The plan of care indicates the type,
        amount, frequency, and duration of the services.

    • 	 The plan of care must be recertified periodically by a physician.

The implementing regulations at 42 CFR §§ 410.60 and 410.61 restate these coverage
requirements and further specify that the plan of care must include the diagnosis and anticipated
goals of the therapy that a physician must recertify every 30 days. Section 2218 of the Medicare
Carriers Manual3 states that the plan of care must contain:

    •	   the patient’s significant past history;
    •	   patient’s diagnoses that require physical therapy;
    •	   related physician orders;
    •	   therapy goals and potential for achievement;

1
  For a more complete definition of physical therapy, see American Physical Therapy Association, “Model Definition of Physical 

Therapy for State Practice Acts in the Guide to Physical Therapy Practice,” 1997, chapter 1, p. 2.

2
  Centers for Medicare & Medicaid Services, Medicare Carriers Manual, section 2050.1. 

3
  Online Centers for Medicare & Medicaid Services Manual System, Publication 100-2, chapter 15, section 220.2.

Page 3 – Leslie V. Norwalk


     • 	 any contraindications;
     • 	 patient’s awareness and understanding of diagnoses, prognosis, treatment goals; and
     • 	 when appropriate, the summary of treatment provided and results achieved during 

         previous periods of physical therapy services. 


Section 1833(e) of the Act requires that providers furnish “such information as may be necessary
in order to determine the amounts due” to receive Medicare payment. Related regulations at
42 CFR §§ 411.15(k) and 424.5(a)(6) reflect these provisions of Federal law.

Section 1861(s)(2)(A) of the Act provides for Medicare coverage of services and supplies
furnished “incident to” the professional services of a physician. This section defines covered
medical and other health services as “. . . services and supplies (including drugs and biologicals
which are not usually self-administered by the patient) furnished as incident to a physician’s
professional service, of kinds which are commonly furnished in physicians’ offices and are
commonly either rendered without charge or included in the physicians’ bills.” The
implementing regulations at 42 CFR §§ 410.10(b) and 410.26 restate this language. Section
2050 of the Medicare Carriers Manual4 provides examples of services and supplies covered
under the “incident to” rule. Examples of services include taking blood pressures and
temperatures, giving injections, and changing dressings. Examples of supplies include gauze,
ointments, bandages, and oxygen.

The “incident to” rule allows physicians to bill for physical therapy performed by any
nonphysician staff (including, but not limited to, licensed physical therapists). The rule allows
physician reimbursement for physical therapy at the full physician fee schedule amount for
physical therapy provided by nonphysician staff, if the services are:

     • 	 commonly furnished in a physician’s office and are an integral, although incidental, part
         of the physician’s covered services;
     • 	 included in a treatment plan for an injury or illness, where the physician personally
         performs the initial service and is involved actively in the course of treatment; and
     • 	 furnished under the direct supervision of a physician.5

Section 1862(a)(20) of the Act permits payment for therapy services furnished “incident to” a
physician’s professional services only if the practitioner meets the standards and conditions that
would apply to such therapy services if they were furnished by a therapist, with the exception of
the licensing requirement. Under the “incident to” rule, licensed physical therapists need not
perform the services, and Medicare currently does not require licensure or certification of staff
that perform “incident to” physical therapy. However, in all other settings, including nursing
homes, independently practicing physical therapists’ offices, and rehabilitation facilities,
Medicare requires that only licensed physical therapists can render physical therapy. In addition,
licensed physical therapist assistants, performing within their scope of practice, may render
Medicare physical therapy under the direct supervision of a physical therapist.

4
  Ibid., sections 60.1-60.4.

5
  Direct supervision means that the physician must be present within the office suite and immediately available to render 

assistance in person, if necessary. Physicians do not need to be present in the room when the services are rendered. The incident

to” rule does not limit the number of services physicians can bill concurrently (42 CFR § 410.26). 

Page 4 – Leslie V. Norwalk


Training, licensure, and direct billing for physical therapists
Physical therapists are college-educated and State-licensed health care professionals. To qualify
for a State physical therapy license, candidates must have completed a post-baccalaureate
professional education program from an accredited institution.6 Generally, the education
includes a 4-year college degree and at least 2 additional years of full-time study in physical
therapy. Therapists must pass a State-administered national examination in order to practice.
Additional requirements may vary according to individual State practice acts. For example, in
California, physical therapists must complete an additional 18 weeks of clinical experience under
the supervision of a licensed physical therapist to become licensed.

To bill Medicare directly, physical therapists must be licensed by the State in which they practice
and must adhere to Medicare’s coverage guidelines for outpatient physical therapy. Physical
therapists can provide services in their own offices, a physician’s office, a nursing home, a
hospital, or a rehabilitation facility. When physical therapy is rendered “incident to” physicians’
professional services, unlicensed individuals can render the services.

In November 2004, CMS issued a final rule to address the skill level of staff that provides
physical therapy “incident to” physicians’ services. CMS now requires that staff providing these
services must meet the same standards and conditions as qualified therapists, with the exception
of the licensing requirement. For example, unlicensed staff furnishing “incident to” physical
therapy services must meet the existing training standards for licensed physical therapists. In
May 2005, CMS issued a change request (Publication 100-02, Transmittal 34, Change Request
3648) that reorganizes and clarifies current CMS policy with respect to physical therapy services.
The change request includes:

    •    clarification of conditions of coverage for physical therapy services;
    •    descriptions of plan of care, certification, and recertification requirements;
    •    description of reasonable and necessary requirements;
    •    description of supervision requirements for physical therapy services; and
    •    clarification of “incident to” physical therapy services.

In addition, CMS has posted provider education materials regarding physical therapy services on
its Web site (www.cms.hhs.gov/providers/therapy/).

Previous Office of Inspector General Work
OIG began reviewing Medicare rehabilitation therapy (including physical therapy) in 1994. Our
evaluations, which have focused on therapy provided in physicians’ offices and nursing homes,
found that significant compliance and quality of care problems persist, including overutilization,
services rendered by unskilled staff, and services billed that do not meet Medicare’s coverage
rules.




6
 Graduates from 1960 to the present must have graduated from an institution accredited by the Commission on Accreditation in
Physical Therapy Education (CAPTE). Beginning in 2002, the CAPTE limited its accreditation to only those programs offering a
post-baccalaureate degree in physical therapy.
Page 5 – Leslie V. Norwalk


In 1994, OIG reported that approximately 78 percent of physical therapy rendered in physicians’
offices did not represent true physical therapy, as defined by Medicare.7 The services were
mostly palliative in nature or did not represent the complexity required by Medicare’s coverage
guidelines.

In 1999, OIG issued two reports8 addressing therapy provided to Medicare beneficiaries in
skilled nursing facilities during 1998, prior to implementation of the prospective payment
system. We found that while most nursing home patients were proper candidates for physical
and occupational therapy, approximately 13 percent of the services were billed improperly.
These improper billings represented almost $1 billion reimbursed to nursing homes in 1998.

In 2001, OIG issued two reports9 addressing physical therapy for nursing home patients. We
found that the $1,500 financial limitation on therapy in 1999 did not prevent nursing home
patients from receiving necessary and appropriate services. We also found that, despite the
limitation, 14 percent of the therapy (representing $28 million during the first 6 months of 1999)
was not medically necessary.

METHODOLOGY

We used multiple methodologies to accomplish our objectives:

1. medical review of a random sample of claims,

2. analysis of Medicare claims and billing patterns, and

3. interviews with physicians in our sample and Medicare carrier personnel.

For this review, we selected a simple random sample of 70 physical therapy line items billed by
physicians and rendered in the first 6 months of 2002. We eliminated two line items from our
sample because one line item was for respiratory therapy and a physician we could not locate
submitted the other. The total allowed amount in our sample of 68 line items was $2,176.62.
We selected the line items from the population of all line items billed by physicians with service
dates between January 1 and June 30, 2002.10 We selected line items in order to project our
findings to the total Medicare allowed amounts for physicians’ physical therapy during the
sample timeframe.

A line item is a single current procedural terminology (CPT) code within the claim; however, it
may reflect multiple units of the same procedure. For example, CPT 97110 represents a
therapeutic procedure, one or more areas, each 15 minutes. The line items ranged from one to
7 Office of Inspector General, “Physical Therapy in Physicians’ Offices,” OEI-02-90-00590.
8
  Office of Inspector General, “Physical and Occupational Therapy in Nursing Homes: Medical Necessity and Quality of Care”

(OEI-09-97-00121) and “Physical and Occupational Therapy in Nursing Homes: Cost of Improper Billings” (OEI-09-97-00122), 

both issued in August 1999. 

9
  Office of Inspector General, “Physical, Occupational, and Speech Therapy for Medicare Nursing Home Patients: Medical 

Necessity, Cost, and Documentation Under the $1,500 Caps” (OEI-09-99-00560) and “Physical, Occupational, and Speech 

Therapy for Medicare Nursing Home Patients: Medical Necessity and Quality of Care Based on the Treatment Diagnosis” (OEI

09-99-00563), both issued in August 2001. 

10
   The total population of line items is 5,669,575 representing $164.4 million.

Page 6 – Leslie V. Norwalk


three units each (15 to 45 minutes). Each line item, regardless of the number of units, is
weighted equally when we report aggregate claim percentages. We used the actual allowed
amount for each line item, which reflects the number of units for each CPT code to estimate total
allowed Medicare dollars. A claim may contain multiple line items with multiple units.
Throughout this report, we use the term “claim” to refer to single physical therapy line items (a
single CPT code).

We requested complete medical records from the physicians for each beneficiary for the dates
reflecting the physical therapy episode of care during which the sampled claim was rendered. In
addition, we requested the Medicare billing records, physician and staff schedules for each day
the beneficiary received medical services, and all licenses and credentials for the staff that
provided services to the beneficiary. The episodes of care varied in length and occurred from
July 2001 through December 2002. We made four requests for the records. We received
54 valid responses (79 percent). The confidence intervals at the 95 percent level are in
Appendix A.

We contracted with licensed physical therapists to review each service according to a standard
protocol, which was based on Medicare coverage guidelines and requirements. The review
instrument solicited information about the beneficiary’s physical therapy as a whole and about
the individual sampled service in particular. This enabled the reviewers to determine if the
services billed to Medicare were covered and properly documented. This level of information
would not generally be available to carriers unless they were to conduct a comprehensive
medical review of a particular physician or patient.11 After completing their review, the
contractors returned the completed instruments to us for data entry. We analyzed the medical
review results using the statistical software packages SAS and SUDAAN.

When we requested medical records from a physician and received no response after four
requests, we considered the claim undocumented. This is consistent with 42 CFR
§ 424.5(a)(6), which states that Medicare providers must furnish to the Medicare carriers
sufficient information to determine whether or not payment is due. In our final written request to
the physicians, we informed them that if we did not receive the requested documentation, we
would not be able to confirm the appropriateness of payment, and we would refer the matter to
the appropriate Medicare carrier for resolution. Carriers could collect overpayments from the
physicians and determine if fraud or abuse investigations are warranted.

Data Analysis and Interviews
We analyzed all physicians’ Medicare Part B physical therapy claims for 2002, 2003, and 2004.
We analyzed and reviewed physicians’ billing patterns. Our analysis included:

     •   total allowed amounts for physicians’ physical therapy;
     •   total allowed amounts for physical therapy per physician;
     •   total allowed amounts for physical therapy per beneficiary;
     •   geographic dispersion of Medicare’s physical therapy; and

11
  We recognize that our methodological approach differs from that of CMS’s Comprehensive Error Rate Testing (CERT)
program. The CERT paid claims error rate is based on the review of a single claim, while our review elicited information about
the beneficiaries’ episode of physical therapy care in addition to an evaluation of the individual sampled service.
Page 7 – Leslie V. Norwalk


   • 	 relationships among physicians, including physicians who share the same beneficiaries
       with other physicians.

We interviewed, in person and by telephone, selected Medicare Part B carriers that have
conducted reviews and investigations of physicians’ physical therapy claims. The carriers
provided summaries of their work, including the total dollar amounts for therapy that was paid
inappropriately.

We conducted telephone interviews with 32 of the 54 physicians who responded to our medical
record request and consented to an interview. We asked to what extent they personally render
physical therapy and who on their staff render physical therapy.

2002 MEDICAL REVIEW RESULTS

Ninety-one percent of physical therapy billed by physicians and allowed by Medicare
during the first 6 months of 2002 did not meet program requirements, resulting in $136
million in improper payments. During the first 6 months of 2002, Medicare allowed
approximately $158 million for physical therapy billed by physicians (Table 1). Based on our
medical review, 26 percent of the therapy during this period was not medically necessary, and
34 percent was undocumented. Fifty-seven percent of the services were furnished under
incomplete plans of care or had no plan of care documented. All of the services that were not
medically necessary also were furnished under incomplete plans of care or had no plans of care
documented.

     Table 1: Improper Payments for Physical Therapy Billed by Physicians

                                                                             Sample                            Projected
                                                                                      Allowed      Services       Allowed Amount
     Type of error                                                   Services         Amount      (Percent)              (Millions)
     Not medically necessary                                               18         $455.65          26%                   $33.0

     Undocumented:

      -Nonresponse                                                         14          466.58              *                      *

      -Missing documentation                                                 9         209.56              *                      *

     Total undocumented                                                    23         $676.14          34%                   $49.0

     Incomplete/No plan of care:

      -Incomplete plan of care                                             23         $802.40          34%                   $58.2

      -No plan of care                                                     16         $397.50          24%                   $28.8

     Total incomplete/no plan of care                                      39       $1,199.90          57%                   $87.0
     Overlapping errors
      (Both not medically necessary and incomplete/no plan                (18)     ($455.65>        <26%>                 <$33.0>
     of care)
     Total                                                                 62     $1,876.04           91%                  $136.0
     Source: Medical Review of Physical Therapy Billed by Physicians January to June 2002.
      * Indicates the n for that cell is too small to reliably project. Totals may not equal the sum of individual rows due to
     rounding.
Page 8 – Leslie V. Norwalk


Not medically necessary. Pursuant to section 1862(a)(1)(A) of the Act, services that are not
reasonable and necessary are not covered by Medicare. Twenty-six percent of the physical
therapy billed by physicians and allowed in the first 6 months of 2002, totaling $33 million, did
not meet Medicare criteria for medical necessity. Medical reviewers found that there were no
objective bases for care, no identified outcomes, and/or no change in the patients’ conditions to
justify ongoing therapy.

Undocumented. Physicians did not provide substantiating documentation for approximately
34 percent of the services billed to Medicare. Despite repeated requests, we did not receive the
medical records related to 14 of the services in our sample. The physicians who billed for an
additional nine of the services provided us with records that did not substantiate that any service
was rendered on the date claimed. Based on these findings, we estimate that Medicare may have
allowed approximately $49 million during the first 6 months of 2002 for undocumented physical
therapy services billed by physicians. Although some cases of missing documentation may be
attributable to billing errors (e.g., putting the wrong date on the claim form), others might
represent services not rendered. In any case, claims for services that lack sufficient
documentation to show that care was provided do not meet the requirements of section
1833(e) of the Act.

No plan/incomplete plan of care. Separate from the completely undocumented services
previously discussed, 57 percent of physical therapy services were furnished without a plan of
care or under an incomplete plan of care, contrary to the requirements of section 1861(p) of the
Act. Approximately 24 percent of the services were furnished under no plan of care, and
34 percent were furnished under incomplete plans.12 The incomplete plans did not contain
information concerning the amount, frequency, or duration of the therapy, and/or physician
certification. When projected to the national population of therapy billed by physicians, we
estimate the services furnished without a plan of care or under an incomplete plan of care
represent $87 million that Medicare allowed during the first 6 months of 2002.

Overlapping errors. All of the services that were not medically necessary also were furnished
under incomplete plans of care or had no plans of care documented.

Because of inadequate documentation, reviewers had difficulty assessing the quality of the
therapy services. Reviewers could not assess the quality of care for 33 of the
54 records they reviewed. However, 12 records contained enough documentation for the
reviewers to question the quality of care and note that some services “lacked an objective basis
for care.” They also noted that massage therapy alone, which was the only service provided in
three cases, is not considered “a skilled intervention or restorative care.”

Most medical records did not indicate the skill level of the individual who rendered the therapy.
The reviewers could not determine the skill level of the staff who rendered physical therapy in
32 of the 54 records. Persons with the appropriate skill levels, including physicians, physical
therapists, and physical therapist assistants appear to have rendered the services in 18 of the
54 records. Persons who lacked appropriate skill levels,13 such as an acupuncturist, a “certified

12
     These approximations total 58 percent due to rounding.
13
     According to the judgment of our medical reviewers.
Page 9 – Leslie V. Norwalk


disability examiner,” a massage therapist, and a physical therapist aide, appear to have rendered
the services for four of the claims.

Of the 32 physicians we interviewed, 24 told us that their staff render some or all of the physical
therapy for which they bill Medicare. According to these physicians, therapy in their offices is
rendered by:

   •	   podiatrists,
   •	   chiropractors,
   •	   physical therapists,
   •	   physical therapist assistants,
   •	   massage therapists, and
   •	   physical therapist aides.

Fourteen of the physicians we interviewed reported that they personally render some or all of the
therapy for which they bill; however, we could not verify through Medicare claims data what
proportion of the physicians’ physical therapy claims were rendered personally by the physician.

Some physicians in our sample billed Medicare for extensive physical therapy without
developing a plan of care. Twenty-three of the fifty-four beneficiaries in our sample received
physical therapy with no plan of care. These beneficiaries received a mean average of 30 days of
physical therapy in 2002 from the physicians in our sample. Medicare allowed a mean average
of $2,691 for each beneficiary for physical therapy from the physicians in our sample. In total,
physicians for these 23 beneficiaries billed physical therapy for more than 8,000 beneficiaries in
2002 for which Medicare allowed approximately $7.8 million.

One beneficiary in our sample received 15 months of physical therapy for lumbago and
osteoarthritis, for which Medicare allowed $39,126. The beneficiary’s physician did not
document a plan of care and did not establish medical necessity for the services. The physician,
a general practitioner, billed physical therapy to Medicare for 672 patients in 2002, an average of
27 patients per day. In 2002, Medicare allowed $752,531 for this physician’s physical therapy
claims.

ANALYSIS OF PHYSICIAN BILLING PATTERNS FOR PHYSICAL THERAPY

We identified aberrances in physicians’ billing patterns and unusually high volumes of claims
that suggest physical therapy is vulnerable to abuse. Using 100 percent of Medicare’s claims
data for 2002, 2003, and 2004, we analyzed physicians’ billing patterns for physical therapy.
The following are examples of what we found that raise questions about physicians’ physical
therapy billing patterns:

   • 	 Approximately 4 percent of all physicians who submitted physical therapy claims

       account for more than half of all allowed claims in 2004 (Table 2). 

   • 	 Medicare allowed between $1 million and $7.6 million in physical therapy claims for
       each of 15 physicians in 2002, 29 physicians in 2003, and 38 physicians in 2004. (See
       Appendix B.)
Page 10 – Leslie V. Norwalk


   • 	 For an additional 992 physicians, Medicare allowed more than $100,000 each in physical
       therapy claims alone in 2004.
   • 	 One hundred thirty-four physicians each billed Medicare for physical therapy for more
       than 500 patients in 2004. In contrast, the median number of patients receiving physical
       therapy for the entire physician population (that rendered physical therapy in 2004) is
       eight. Of the 134 physicians, 97 shared at least 50 of their patients with another of the
       134 physicians who also billed physical therapy for the same patient.
   • 	 We identified 13,090 beneficiaries whom Medicare allowed at least $5,000 each in
       physical therapy billed by physicians in 2004. In contrast, for the entire beneficiary
       population, Medicare allowed a median of $305 each for physical therapy billed by
       physicians in 2004.
   • 	 The aberrances in billing patterns we observed cannot be explained by the specialties of
       providers who bill for excessive services. For example, only 4 of the 51 physicians who
       billed Medicare more than $1 million for physical therapy in 2002, 2003, or 2004 were
       physical medicine and rehabilitation or osteopathic manipulative therapy specialists.
       (See Appendix B.)


        Table 2: Selected Statistics for Physical Therapy Billed by Physicians in 2004
        by Categories of Medicare Allowed Amounts

        Allowed                                          $1 to       $100,000 to      $500,000 to   $1 million
        per physician                                  $99,999         $499,999         $999,999      or more

        Total physicians                                23,777               885             107           38

        Percent of physicians                           95.85%            3.57%            0.43%        0.15%

        Percent of allowed physical therapy             38.85%           34.26%           13.92%       12.97%

        Median allowed per physician                      $987         $163,127         $623,091    $1,419,803

        Source: Office of Inspector General analysis of Medicare claims data, 2005.


THE “INCIDENT TO” RULE

Physicians are not required to indicate on their claims if services were rendered “incident to”
their professional services, and thus, the claims appear as if the physician personally rendered the
services. Therefore, in our medical review and our analysis of billing patterns, we could not
measure the proportion of physicians’ claims that were rendered “incident to” nor could we
determine whether qualified therapists rendered the service.

Under the “incident to” rule, a physician can bill for an unlimited amount of physical therapy
rendered at the same time, as long as the physician is “directly supervising” the staff rendering
the services. However, based on the medical record documentation provided by the sampled
physicians, we could not confirm that physicians directly supervised the provision of the service
because they are not required to document “direct supervision” of therapy. In our analysis of
billing patterns, we found that some physicians are billing physical therapy for dozens of
beneficiaries daily, but we could not determine how many receive therapy at the same time, and
therefore could not determine whether direct supervision for all of these services was physically
possible. For example, 1 physician in our sample billed Medicare for physical therapy for an
Page 11 – Leslie V. Norwalk


average of 51 patients per day in 2002. Among all physicians who billed Medicare for physical
therapy in 2002,14 110 billed at least once for more than 50 patients per day.

Finally, under Medicare, although staff that render physical therapy “incident to” physicians’
services need not be licensed, they are required to adhere to the same standards of care15 as
independently practicing physical therapists. However, because physicians’ medical records
were documented inadequately, we could not confirm their compliance with these standards of
care.

CONCLUSION AND ITEMS FOR CONSIDERATION

Under the “incident to” rule, Medicare allows physicians to bill for physical therapy that is
rendered either by the physicians themselves or by their staff. Until 2005, staff who rendered
physical therapy in physicians’ offices did not have to be trained or licensed. In 2005, CMS
implemented a regulation that requires staff who render physical therapy in physicians offices
have the same training as licensed physical therapists. They still do not need to be licensed. In
addition, under the “incident to” rule, there is no limit on the number of therapy staff that
physicians can supervise concurrently. These conditions represent a vulnerability that could
partially account for the noncovered and undocumented care described above and could be
placing beneficiaries at risk of receiving services that do not meet professionally recognized
standards of care. Therefore, we believe that the requirements for physical therapy rendered in
physicians’ offices, including licensure, should not differ with the requirements for therapy
rendered in other settings, such as independently practicing physical therapists’ offices and
nursing homes.

In addition, given the vulnerabilities identified in our medical review as well as our analysis of
physician billing patterns for physical therapy, CMS should consider revisions, clarifications,
and further study of the “incident to” rule to ensure that Medicare beneficiaries are receiving
skilled services from appropriately trained and licensed staff and that the services meet
professionally recognized standards of care. Under separate cover, we will forward information
on the noncovered and undocumented services identified in our sample to CMS for appropriate
action.

We plan to continue to monitor Medicare payments for physical therapy and will conduct
additional reviews in this area as warranted.

If you have any questions about this summary of our review, please do not hesitate to call me or
one of your staff may contact Tricia Davis, Director, Medicare and Medicaid Branch, at (410)
786-3143 or through e-mail [Tricia.Davis@oig.hhs.gov].




14
  This includes, but is not limited to, the physicians who appeared in our random sample of claims.
15
  Effective June 6, 2005, CMS requires that staff providing physical therapy “incident to” physicians’ services must be graduates
of a qualified program of training in physical therapy. (Online CMS Manual System, Publication 100-02, chapter 15, section
230.5. Accessed November 21, 2005.)
Page 12 – Leslie V. Norwalk


                                                                                                     APPENDIX A

                              Confidence Intervals for Selected Statistics


                                                                                  95 Percent Confidence Intervals

                                                                              Estimated Allowed        Estimated Allowed
          Selected Statistics                        Estimates                     Services                  Dollars
                                                                                   (percent)              (in millions)
                                                               Dollar
                                               Point     Estimate
                Estimates                     Estimate (in millions)          Lower      Upper         Lower        Upper
What Medicare allowed                               100%          $157.8                                  $148.5     $167.1
Inappropriately paid services                      91.2%          $136.0         84.4%       98.0%        $115.8     $156.3
 -Not medically necessary                          26.4%           $33.0         15.9%       37.0%         $15.7      $50.4
 -Undocumented services                            33.8%           $49.0         22.5%       45.2%         $29.2      $68.8
 -Incomplete or no plan of care                    57.4%           $87.0         45.5%       69.2%         $64.2     $109.8
Source: Office of Inspector General analysis of Medicare claims data, 2005.
Page 13 – Leslie V. Norwalk


                                                                                                           APPENDIX B

Physician Profiles: Physicians Allowed More Than $1 Million for Physical
Therapy Claims in 2001 and 2002

                                               Total Part B                            Part B Beneficiary
           Physician
                                     Allowed Physical Therapy Claims                    Statistics (2004)


                                                                                       Total         Average
                                                                                    Beneficiaries    Allowed
                                                                                    Who Received     Physical
                                                                                      Physical    Therapy Claims
No.           Specialty                2002              2003           2004          Therapy     Per Beneficiary
1     Internal Medicine          $    1,876,782     $   2,067,335   $   3,901,621             389 $      10,030
      Osteopathic Manipulative
2     Therapy                    $            163   $   1,727,941   $   3,873,463             221 $      17,527
3     Pediatric Medicine         $             -    $    260,663    $   3,569,459             138 $      25,866
4     Family Practice            $     378,670      $    742,025    $   3,160,019             328 $       9,634
5     Internal Medicine          $     137,437      $   2,355,194   $   2,991,062             251 $      11,917
6     Internal Medicine          $     174,925      $   1,379,520   $   2,770,288             198 $      13,991
7     Family Practice            $     414,089      $   2,943,860   $   2,745,495             131 $      20,958
8     Obstetrics/Gynecology      $             -    $           -   $   2,304,814             185 $      12,458
9     Family Practice            $    1,282,524     $   7,629,540   $   2,021,617             456 $       4,433
10 Internal Medicine             $    1,414,012     $   1,698,609   $   1,775,549             400 $       4,439
11 Internal Medicine             $             -    $           -   $   1,765,782             103 $      17,144
   Physical Medicine and
12 Rehabilitation                $     377,629      $   1,328,291   $   1,683,338             699 $       2,408
13 Family Practice               $             -    $    549,832    $   1,675,719             980 $       1,710
14 General Practice              $             -    $    152,757    $   1,671,809             899 $       1,860
15 Family Practice               $       5,395      $      6,368    $   1,620,016             577 $       2,808
16 Family Practice               $     809,255      $    150,485    $   1,604,205             717 $       2,237
17 General Practice              $     421,882      $    610,184    $   1,578,111             751 $       2,101
18 Internal Medicine             $     638,291      $   1,609,510   $   1,496,640             278 $       5,384
19 Family Practice               $    1,354,725     $   2,237,009   $   1,445,758             112 $      12,909
20 Internal Medicine             $     519,960      $   1,010,853   $   1,393,847              62 $      22,481
21 Internal Medicine             $    2,016,524     $   1,631,839   $   1,338,885             510 $       2,625
22 Family Practice               $     945,352      $   1,665,354   $   1,319,578            1564 $         844
23 General Practice              $     452,046      $   1,183,474   $   1,278,525             742 $       1,723
   Physical Medicine and
24 Rehabilitation                $      99,221      $           -   $   1,273,308             622 $       2,047
25 Internal Medicine             $     327,561      $   1,068,519   $   1,247,487             585 $       2,132
26 General Surgery               $     290,313      $    755,328    $   1,234,159             841 $       1,467
27 Family Practice               $    1,170,425     $   1,234,733   $   1,222,831             663 $       1,844
28 Family Practice               $    1,432,369     $   1,762,887   $   1,214,077             925 $       1,313
29 General Practice              $             -    $     51,062    $   1,149,140             464 $       2,477
30 Family Practice               $             -    $      3,613    $   1,122,661             869 $       1,292
31 Internal Medicine             $    1,097,949     $   1,110,347   $   1,116,834             311 $       3,591
Page 14 – Leslie V. Norwalk


                                                                                                               APPENDIX B

Physician Profiles: Physicians Allowed More Than $1 Million for Physical
Therapy Claims in 2001 and 2002 (continued)


                                              Total Part B                                Part B Beneficiary
         Physician
                                    Allowed Physical Therapy Claims                        Statistics (2004)


                                                                                                         Average
                                                                                          Total          Allowed
                                                                                       Beneficiaries     Physical
                                                                                      Who Received Therapy Claims
No.         Specialty                 2002             2003             2004         Physical Therapy Per Beneficiary
32 General Practice             $             -    $      2,252     $   1,110,650                702 $        1,582
33 General Practice             $     160,478      $     56,733     $   1,099,092                527 $        2,086
34 General Practice             $     756,197      $   1,004,757    $   1,072,267                648 $        1,655
   Osteopathic Manipulative
35 Therapy                      $            108   $    360,466     $   1,043,992                 84 $       12,428
36 Internal Medicine            $     109,675      $    477,074     $   1,039,833                331 $        3,141
37 Ophthalmology                $     652,059      $   1,097,927    $   1,022,585                267 $        3,830
38 Internal Medicine            $      50,956      $    287,431     $   1,003,409                670 $        1,498
39 Internal Medicine            $    1,167,398     $   1,201,513    $    939,284                 450 $        2,087
40 Internal Medicine            $     115,999      $   1,029,026    $    873,985                 341 $        2,563
41 Internal Medicine            $    1,073,827     $    514,978     $    563,536                 386 $        1,460
42 General Practice             $     921,636      $   1,090,810    $    525,272                 565 $          930
43 Internal Medicine            $    1,203,828     $   2,056,425    $    301,632                 343 $          879
44 Family Practice              $     407,647      $   2,124,714    $    300,544                 217 $        1,385
45 Internal Medicine            $    1,283,553     $    230,010     $    100,357                 129 $          778
46 General Practice             $    1,725,638     $   1,318,579    $     80,004                 711 $          113
47 General Practice             $     732,566      $   1,165,387    $     52,367                  55 $          952
48 Internal Medicine            $    1,088,169     $          808   $      5,368                  12 $          447
49 Family Practice              $     589,697      $   1,382,912    $          131                 1 $          131
50 General Practice             $    1,878,761     $           -    $           -                  0 $            -
51 Internal Medicine            $       2,362      $   1,605,499    $           -                  0 $            -
                       Averages $     595,510      $   1,055,442    $   1,315,178                439 $        5,129
                         Totals $ 31,562,055       $ 55,938,437     $ 69,704,410              18,887
Source: Office of Inspector General analysis of Medicare claims data, 2005.
